D
I                                                 EMPLOYMENT AND TRAINING
S
C                                                 ADMINISTRATION
U
S
S
I
O
N   Office of Inspector General—Office of Audit
D
R
A
F
T




                                                  ADAMS AND ASSOCIATES DID NOT ENSURE
                                                  BEST VALUE IN AWARDING SUB-CONTRACTS
                                                  AT THE RED ROCK JOB CORPS CENTER




                                                                     Date Issued:   September 30, 2011
                                                                  Report Number       26-11-002-03-370
U.S. Department of Labor                                  September 2011
Office of Inspector General
Office of Audit
                                                          ADAMS AND ASSOCIATES DID NOT ENSURE BEST
                                                          VALUE IN AWARDING SUB-CONTRACTS AT THE RED
                                                          ROCK JOB CORPS CENTER
BRIEFLY…
Highlights of Report Number 26-11-002-03-370, issued      WHAT OIG FOUND
to the Assistant Secretary, Employment and Training       Adams Red Rock improperly awarded both of the
Administration (ETA).                                     sub-contracts managed during our review period. For
                                                          the two sub-contracts, we questioned $216,780
WHY READ THE REPORT                                       because the center had not established fair and open
Adams and Associates, Inc. (Adams) operates the Red       competition. Cost or price analysis and responsibility
Rock Job Corps Center (Adams Red Rock). This report       checks of the sub-contractors’ ability to satisfactorily
discusses how Adams did not ensure best value was         perform the contracts were not performed. Both of
received by the government when awarding                  these sub-contracts were for physician services,
sub-contracts and purchase orders. We questioned          including mental health. As such, it was critical for the
costs totaling $334,675 due to non-compliance with        center to ensure its students received adequate care by
applicable sections of the Federal Acquisition            evaluating the bids based on the quality of services to
Regulations (FAR). The report also discusses process      be provided as well as cost.
improvements Adams Red Rock, ETA, and Job Corps
need to make to ensure Adams Red Rock’s future            Issues were found in the award of purchase orders to
sub-contract and purchase order awards comply with        vendors for 13 of the 54 expenditures more than $3,000
applicable sections of the FAR.                           statistically selected. For 11 of these expenditures, the
                                                          center did not adequately justify selection of the food
                                                          vendor that was awarded a blanket purchase
WHY OIG CONDUCTED THE AUDIT                               agreement. For two expenditures, Adams Red Rock did
Our audit objective was to answer the following           not adequately justify sole-source procurement as
question:                                                 required by the FAR. We questioned the $117,895 in
                                                          total costs for the 13 expenditures.
  Did Adams Red Rock award sub-contracts and claim
  costs in accordance with the FAR?                       These conditions occurred because Adams Red Rock
                                                          did not establish a control environment, including
Our audit work was conducted at the Adams Red Rock        procedures and oversight, to ensure compliance with
Job Corps Center in Lopez, Pa., and at the Philadelphia   the applicable FAR sections. In addition, neither ETA
Regional Office of Job Corps in Philadelphia, Pa.         contracting personnel nor Job Corps regional staff
                                                          adequately monitored Adams Red Rock procurement
                                                          activities.
READ THE FULL REPORT
To view the report, including the scope, methodology,
and ETA and Adams full responses, go to:
                                                          WHAT OIG RECOMMENDED
                                                          We recommended the Assistant Secretary for
http://www.oig.dol.gov/public/reports/oa/2011/26-11-      Employment and Training recover the costs we
002-03-370.pdf.                                           questioned, as appropriate; direct Adams and Adams
                                                          Red Rock to establish procedures, training, and
                                                          oversight to ensure compliance with the applicable FAR
                                                          sections; and direct ETA contract personnel and Job
                                                          Corps regional staff to review all future Adams Red
                                                          Rock sub-contracts for FAR compliance and approval
                                                          prior to award.

                                                          ETA generally agreed with our findings and accepted in
                                                          full or in part all of our recommendations. Adams
                                                          disagreed with our findings and stated that the FAR
                                                          pertains to contract award decisions by government
                                                          contracting officers and not to sub-contract award
                                                          decisions by Adams.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                                          U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1



Objective — Did Adams Red Rock award sub-contracts and claim costs in 

            accordance with FAR? ............................................................................ 4


         Adams Red Rock JCC improperly awarded sub-contracts resulting in 

         more than $334,000 in questioned costs.............................................................. 4



         Finding — Adams Red Rock did not comply with applicable sections of the 

                   FAR when awarding sub-contracts and purchase orders. .................. 4



Recommendations ...................................................................................................... 10



Exhibit
         Exhibit Sub-Contracts Awarded Not Using Best Value....................................... 13



Appendices
         Appendix A Background ..................................................................................... 17


         Appendix B Objective, Scope, Methodology, and Criteria .................................. 19


         Appendix C Acronyms ........................................................................................ 23


         Appendix D ETA's Response to Draft Report ..................................................... 25


         Appendix E Adams’ Response to Draft Report................................................... 29


         Appendix F Acknowledgments ........................................................................... 47 





                                                                                  Adams Red Rock Sub-Contracting
                                                                                     Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                                        U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




September 30, 2011

                                Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, N.W.
Washington, D.C. 20210

Job Corps is a residential training program for disadvantaged youth where employability
skills are developed. Its training activities and living facilities are housed within 125
centers throughout the country. The Job Corps program is administered by the
Department of Labor’s (DOL) Employment and Training Administration (ETA) per
authorization of the Workforce Investment Act (WIA). Within ETA, the Office of Job
Corps manages the program, and consists of a national office and 6 regional offices.
The Job Corps program’s budget for FY 2010 totaled about $1.7 billion.

Adams and Associates, Inc. (Adams) operates the Red Rock Job Corps Center (Adams
Red Rock). Adams’ contract with Job Corps to operate the center covers the 5-year
period from May 1, 2010, to April 30, 2015. The contract value totals approximately $49
million, including $19 million for the base 2-year period and $10 million for each of the 3
option years.

Center operators are required to adhere to applicable sections of the Federal
Acquisition Regulations (FAR) when procuring goods and services and claiming costs to
ensure best value is received by the Federal government.1 In addition, center operators
are required to comply with Job Corps’ Policy and Requirements Handbook (PRH),
contract provisions specifying compliance with the FAR, and their own standard
operating procedures (SOP).

Our audit objective was to answer the following question:

    Did Adams Red Rock award sub-contracts and claim costs in accordance with the
    FAR?




  The OIG and ETA agreed that the FAR sections cited in this report are applicable to contracted center operators.
1

The OIG is conducting additional work to determine if other parts of the FAR are applicable and will report on these
issues separately.

                                                          1                         Adams Red Rock Sub-Contracting
                                                                                       Report No. 26-11-002-03-370
                                                       U.S. Department of Labor – Office of Inspector General


To address our audit objective, we reviewed criteria that were applicable to Adams Red
Rock procurement activities as of May 2011. This included Job Corps’ Policy and
Requirements Handbook (PRH), FAR, contract provisions, and Adams Red Rock’s
standard operating procedures (SOP). We also analyzed Adams and Job Corps
Regional Office assessments of Adams Red Rock operations and performed process
walkthroughs with key Adams Red Rock and Adams officials, as well as ETA and Job
Corps regional office staff. We tested each of the sub-contracts and expenditures for
compliance with the sections of the FAR applicable to Adams Red Rock’s contract (Part
52, Solicitation Provisions and Contract Clauses and Part 44, Subcontracting Policies
and Procedures). Our testing determined whether sub-contracts were awarded based
on fair and open competition; whether cost or price analysis was performed and
documented; whether responsibility checks were executed to determine the
sub-contractors’ ability to satisfactorily perform the contract (e.g., past performance,
technical requirements, ability to comply with proposed performance and delivery
schedules); and whether documentation was maintained to support claimed costs.

The audit covered sub-contracts managed and expenditures incurred by Adams Red
Rock from May 1, 2010, to December 31, 2010. We examined both sub-contracts,
totaling $216,780, awarded by Adams Red Rock during this period. In addition, we
reviewed a statistical sample of 54 expenditures above $3,000, totaling $448,550, from
103 expenditures totaling $747,177. These expenditures were generally initiated by
purchase orders and were separate items from the two sub-contracts we reviewed.
Adams’ contract to operate Adams Red Rock was not included in our review because it
was awarded by ETA.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Our
objective, scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

Adams Red Rock did not ensure best value was received by the government when
awarding sub-contracts and purchase orders. We questioned costs totaling $334,6752
due to non-compliance with the FAR.

Adams Red Rock improperly awarded both of the sub-contracts managed during our
review period. For the two sub-contracts, we questioned $216,780 because the center
had not established fair and open competition. Cost or price analysis and responsibility
checks of past performance were not performed. Both of these sub-contracts were for
physician services, including mental health. As such, it was critical for the center to
ensure its students received adequate care by evaluating the bids based on the quality

 A final determination will be made by ETA as to the amount of excess funds paid by contractor to be recovered
2

while recognizing the value of goods and services received.

                                                        2                    Adams Red Rock Sub-Contracting
                                                                                Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General




of services to be provided as well as cost. Potential responsibility checks for physician
services included technical skills, experience, and past performance in the following
areas: providing services to a diverse student population, ages 16-24; completing
similar type contracts; writing and supervising treatment plans; and providing individual
and group therapy and training. Red Rock officials stated the center does not use
evaluation factors and awards sub-contracts to the lowest bidder.

Issues were found in the award of purchase orders to vendors for 13 of the 54
expenditures above $3,000 statistically selected. For 11 of these expenditures, the
center did not adequately justify selection of the food vendor that was awarded a
blanket purchase agreement (BPA). For two expenditures, Adams Red Rock did not
adequately justify sole-source procurement as required by FAR. We questioned the
$117,895 in total costs for the 13 expenditures. The $117,895 represented 26.3 percent
of the $448,550 in expenditures tested. Based on our statistical sample, we projected
that there were 22 expenditures where vendor selection did not comply with applicable
sections of the FAR, resulting in $196,606 in potential questioned costs.

These conditions occurred because Adams Red Rock did not establish a control
environment, including procedures and oversight, to ensure compliance with applicable
sections of the FAR. In addition, neither ETA contracting personnel nor Job Corps
regional staff adequately monitored Adams Red Rock procurement activities for
compliance with applicable sections of the FAR.

We recommend the Assistant Secretary for Employment and Training recover the costs
we questioned, as appropriate; direct Adams and Adams Red Rock to establish
procedures, training, and oversight to ensure compliance with applicable sections of the
FAR; and direct ETA contract personnel and Job Corps regional staff to review all future
Adams Red Rock sub-contracts for FAR compliance and approval prior to award.

In response to the draft report, the Assistant Secretary for ETA agreed in full or in part
with our findings and accepted our recommendations. ETA will review ETR SOPs to
ensure they minimally meet the requirements of FAR Subparts 44.303 and 52.244-5,
ensure Adams provides appropriate procurement training, and provide additional tools
to ETA regional contracting officials to ensure a thorough review of potential
sub-contract agreements. In addition, ETA will provide Adams the opportunity to provide
additional information and will make a final determination as to the amount of excess
funds paid by the contractor to be recovered while recognizing the value of goods and
services received.

Adams disagreed with our findings and conclusions. Adams stated that each of the FAR
sections we cited pertained to contract award decisions by government contracting
officers at the prime contract level, and not to sub-contract award decisions by Adams.
Adams said the FAR requirements did not contractually flow-down to Adams and were
not relevant to Adams’ management and operation of Adams Red Rock.



                                            3                  Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General




See Appendix D for ETA’s response in its entirety. See Appendix E for Adams’
response in its entirety.

RESULTS AND FINDINGS

Objective — Did Adams Red Rock award sub-contracts and claim costs in
            accordance with FAR?

      Adams Red Rock JCC improperly awarded sub-contracts resulting in more than
      $334,000 in questioned costs.

Finding — Adams Red Rock did not comply with applicable sections of the FAR
          when awarding sub-contracts and purchase orders.

Based on our testing, Adams Red Rock maintained documentation to support claimed
costs had been incurred. However, the center improperly awarded the two
sub-contracts managed during our review period. We questioned $216,780 because the
center had not established fair and open competition. Specifically, cost or price analysis
and responsibility checks of the sub-contractors’ ability to satisfactorily perform the
contracts were not performed. Adams Red Rock officials stated the center awards
sub-contracts to the lowest bidder, unless there is a known problem with the lowest
bidder. Adams Red Rock also did not comply with FAR Subparts 44.202-2 (a) (7) and
(11) when awarding purchase orders to vendors for 13 of the 54 expenditures more
than $3,000 we statistically selected. Since the center did not adequately justify proper
procurement of the BPA for 11 expenditures and did not properly justify sole sourcing
for 2 expenditures, we questioned $117,895. In total, we questioned $334,675 in
claimed costs relating to Adams Red Rock’s non-compliance with applicable sections of
the FAR.

These conditions occurred because Adams Red Rock did not establish a control
environment, including procedures and oversight, to ensure compliance with applicable
sections of the FAR. Also, neither ETA contracting personnel nor Job Corps regional
staff adequately monitored Adams Red Rock’s procurement activities for compliance
with applicable sections of the FAR.

Job Corps Centers Are Required To Comply With Applicable Sections of the FAR

The FAR is applicable to Job Corps center operators because it is required by the PRH
and their contracts. The Adams contract to operate Adams Red Rock specifically states
in section E-6, Procurement and Property Management:

      The center shall establish systems to procure property, services, and
      supplies in a cost-efficient and environmentally-friendly manner in
      accordance with government policies. The contractor shall also establish
      systems to provide procedures for receipt and accountability of


                                            4                  Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General



      government-owed property, material, and supplies, in accordance with
      PRH 5.6.

The PRH section 5.6 R1 states, “Center operators and OA/CTS contractors shall follow
all applicable procurement regulations, to include those contained in the FAR.”
Applicable FAR requirements for centers procuring supplies or services and claiming
costs include the following:

FAR Subpart 52.244-5, Competition in Subcontracting

   •		 FAR Subpart 52.244-5 as prescribed in FAR Subpart 44.204(c) – The Contractor
       shall select subcontractors (including suppliers) on a competitive basis to the
       maximum practical extent consistent with the objectives and requirements of the
       contract.

FAR Part 44, Subcontracting Policies and Procedures

   •		 FAR Subpart 44.202-2(a) (5) – Obtain adequate price competition or properly
       justify its absence.

   •		 FAR Subpart 44.202-2(a)(7) and FAR Subpart 9.104-1 – Obtain a sound basis
       for selecting and determining the responsibility of the particular subcontractor,
       including past performance, technical requirements, and ability to comply with
       proposed performance and delivery schedules.

   •		 FAR Subpart 44.202-2(a) (8) – Perform adequate cost or price analysis or price
       comparisons and obtain certified cost or pricing data and data other than certified
       cost or pricing data.

   •		 FAR Subpart 44.202-2(a) (11) – Adequately and reasonably translate prime
       contract technical requirements into subcontract requirements.

   •		 FAR Subpart 44.201-1(b) Consent requirements – If the contractor does not have
       an approved purchasing system, consent to subcontract is required by the
       contracting officer.

FAR Subpart 52.216-7, Allowable Cost and Payment

   •		 Subpart 52.216-7(a) Invoicing (sub-paragraph 1) – The Government will make
       payments to the Contractor in accordance with FAR Subpart 31.2.

FAR Subpart 31.2 Contracts with Commercial Organization

      •		 Subpart 31.201-2 Determining Allowability (sub-paragraph d) – A contractor is
          responsible for accounting for costs appropriately and for maintaining records,

                                            5                  Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
                                         U.S. Department of Labor – Office of Inspector General



          including supporting documentation, adequate to demonstrate that costs
          claimed have been incurred, and are allocable to the contract. The
          contracting officer may disallow all or part of a claimed cost that is
          inadequately supported.

      •		 Subpart 31.201-3(a) Determining Reasonableness – A cost is reasonable if,
          in its nature and amount, it does not exceed that which would be incurred by
          a prudent person in the conduct of competitive business. No presumption of
          reasonableness shall be attached to the incurrence of costs by a contractor.

Adams Red Rock’s Non-Compliance Resulted In $334,675 In Questioned Costs

We reviewed the two sub-contracts, totaling $216,780, managed by Adams Red Rock
during May 1, 2010, to December 31, 2010. Additionally, we reviewed a statistical
sample of 54 expenditures more than $3,000, totaling about $448,550, from a universe
of 103 expenditures totaling $747,177.

Adams Red Rock did not consistently comply with applicable sections of the FAR
resulting in questioned costs totaling $334,675. Table 1 summarizes the types of
non-compliance by Adams Red Rock, as well as the number of instances and the
questioned costs for each type.

Table 1: Instances of FAR non-compliance resulting in questioned costs
                                Sub-contracts more
                                                       Expenditures more than
              FAR                 than $25,000 /
                                                          $3,000 / amount of
        Non-compliance              amount of
                                                          questioned costs
                                 questioned costs
  Sub-contract award not based
     on proper responsibility      2 of 2 (100%)
                                                            Not Applicable
              checks                 $216,780
  FAR 44.202-2 (a) (7) and (11)
  Blanket Purchase Agreement
   award not based on proper                            Sample: 11 of 54 (20%)
                                  Not Applicable
       responsibility checks                                   $97,198
  FAR 44.202-2 (a) (7) and (11)
     Inadequate sole source
                                                         Sample: 2 of 54 (4%)
           justification.         Not Applicable
                                                               $20,697
  FAR 44.202-2(a) (7) and (11)
             Totals                2 of 2 (100%)        Sample: 13 of 54 (24%)
           $334,675                  $216,780                  $117,895




                                          6                  Adams Red Rock Sub-Contracting
                                                                Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General



Sub-contracts more than $25,000 where FAR Non-compliance Resulted in Questioned
Costs

The two sub-contracts we questioned were for physician services, including mental
health. It was critical for Adams Red Rock to ensure its students received adequate
care by evaluating the bids based on the quality of services to be provided as well as
cost. We questioned the two sub-contracts because the center did not perform a cost or
price analysis. Additionally, the center did not develop a means of rating the bids or
performing responsibility checks on the past performance of the bidders. The
sub-contracts were for physician services for the center students. As such, it was critical
for the center to ensure students received adequate medical care by evaluating the bids
based on quality of services to be performed as well as cost. Possible responsibility
checks for physician services included past performance providing services to a diverse
student population, ages 16-24; evidence of performance on similar type contracts;
ability to conduct comprehensive mental assessments, write and supervise treatment
plans, and provide individual and group therapy and training; and evidence of a license
to practice in the state and of current liability insurance coverage. We based our
conclusions on the following:

   •		 In 2010, Adams Red Rock awarded a 2-year, $131,108 physician services
       contract to Pennsylvania College of Osteopathic Medicine (PCOM). PCOM had
       been Adams Red Rock’s physician services provider under the last center
       operator. In awarding the sub-contract, Adams Red Rock requested bids on the
       FedBizOps website and received two bids. Adams Red Rock awarded the sub-
       contract to PCOM even though they were the higher bidder. The center’s bid
       records noted that the lower bidder was not awarded the sub-contract because
       they were unable to identify a physician for the center and PCOM was a longtime
       provider of student health care at the center.

       We concluded that Adams Red Rock did not comply with FAR Subparts 44.202-
       2(a) (7) and 44.202-2(a) (11) when selecting PCOM. The center did not perform
       a cost or price analysis, did not properly document responsibility checks, and did
       not properly justify the selection of a higher bid. The lower bidder’s proposal
       package did, in fact, identify a physician for the center. Additionally, Adams Red
       Rock’s records did not include any documentation indicating the quality of past
       services provided by PCOM (e.g., prior center operator assessments, student
       surveys) and the center did not obtain approval by a Job Corps Contracting
       Officer before awarding the sub-contract to PCOM as required by Adams’
       contract to operate the center. As such, we questioned the cost for the
       sub-contract of $131,108.

   •		 In 2010, Adams Red Rock awarded a 2-year, $85,672 mental health services
       contract to Behavioral Health Services. In awarding the sub-contract, Adams Red
       Rock requested bids on the FedBizOps website and received three bids. The
       center awarded the sub-contract to the lowest bidder, Behavioral Health
       Services. Adams Red Rock officials stated the center awards sub-contracts to

                                             7                 Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General



      the lowest bidder, unless there is a known problem with the lowest bidder.
      Additionally, the center did not obtain approval by a Job Corps Contracting
      Officer before awarding the sub-contract to Behavioral Health Services as
      required by Adams’ contract to operate the center. As such, we questioned the
      cost for the sub-contract of $85,672. We concluded that Adams Red Rock did not
      comply with the following FAR Subparts 44.202-2(a) (7) and 44.202-2(a) (11)
      when selecting Behavioral Health Services.

Expenditures More Than $3,000 That Resulted In Questioned Costs

As noted, Adams Red Rock did not comply with applicable sections of the FAR when
awarding purchase orders to vendors for 13 of the 54 tested expenditures more than
$3,000. For 11 expenditures in our sample, the center did not perform responsibility
checks on the sub-contractors’ ability to satisfactorily perform the contracts by
developing and employing responsibility checks to assess bids and award the BPA. For
the two other expenditures, the center did not properly justify sole sourcing. The
following summarizes each type of non-compliance:

   •		 Improper Awarding of BPA — From our sample of 54 expenditures, Adams Red
       Rock purchased food from US Foods under a BPA for 11 expenditures in our
       sample. In 2010, Adams Red Rock posted on the FedBizOps website a Request
       for Quotation for Food Services and received three bids from US Foods, Sysco,
       and Keyco. Upon request by the center, the bidders submitted price quotes for
       various food products. The vendors were not consistent in the food products for
       which they quoted prices and we found no documentation in the file to support
       how the price quotes were used in vendor selection. Adams Red Rock entered
       into two separate BPAs with US Foods and Sysco. We found no documentation
       in the file to support the rationale for the awarding of the BPAs or to support the
       use of responsibility checks (FAR Subpart 44.202). As such, we questioned the
       $97,198 paid for food under the BPAs.

   •		 Inadequate sole-source justification — From our sample of 54 expenditures,
       Adams Red Rock sole sourced two purchases. In both instances, the center was
       not in compliance with the FAR (Subparts 44.202-2(a) (7) and 52.244-5 (a))
       requirement for fair and open competition. Specifically, the center sole sourced
       two purchases of dormitory curtains and comforters from the vendor Skyline
       Mills. Justification for the sole-source purchases was documented as the vendor
       being the only company able to match the curtains and comforters already in the
       dormitories and the price was reasonable. We found no indication in the center
       records, such as a price or cost analysis, supporting the price paid was the best
       value to the government. Adams Red Rock’s justification for its sole-source
       purchases was not adequate justification for a sole-source purchase. As such,
       we questioned the $20,697 paid for the comforters.

    In total, we questioned $117,895 in costs for the 13 expenditures ($97,198 +
   $20,697). The $117,895 represented 26.3 percent of the $448,550 in expenditures

                                            8                  Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
                                            U.S. Department of Labor – Office of Inspector General


      tested. Based on our statistical sample, we are 95 percent confident there were
      between 16 and 28 expenditures where vendor selection did not comply with
      applicable sections of the FAR, resulting in between $141,499 and $251,7133 in
      improperly awarded purchase orders. Together with the two improperly awarded
      sub-contracts, the total cost for improperly awarded purchase orders and
      sub-contracts may be as high as $468,493 ($216,780 plus $$251,713).

Adams Red Rock Obtained Adequate Support Prior To Payments for Purchase Orders
between $3,000 and $25,000

We examined a statistical sample of 54 purchase orders between $3,000 and $25,000.
For all 54 purchase orders examined, Adams Red Rock obtained the required
supporting documents prior to payment.

FAR Non-Compliance Caused By Weak Control Environment

These conditions occurred because Adams Red Rock believed that the FAR applied
only to government contracting officers and were not applicable to Adams Red Rock. As
such, Adams Red Rock had not established a control environment, including
procedures and oversight, to ensure compliance with applicable sections of the FAR.
Adams did conduct a Corporate Program Assessment at Adams Red Rock from
February 28 - March 4, 2011. As part of the assessment, sub-contracts and blanket
purchase agreements were reviewed to determine if the sub-contracts were prepared
and executed in accordance with company and DOL policy; if they were signed by
authorized parties prior to performance of services; if goods and services were received
as stipulated in scope of work; and if center goals were met as specified in its center
contract. However, the assessment team did not review the sub-contract files to
determine if they were awarded in compliance with applicable sections of the FAR.

In addition, neither ETA contracting personnel nor Job Corps regional staff monitored
Adams Red Rock’s procurement activities. The Job Corps regional office did not review
the procurement process at Adams Red Rock since Adams was awarded the center
operator contract May 1, 2010. Adams Red Rock did submit its two sub-contracts to the
ETA contracting officer for approval prior to the center awarding the sub-contracts.
However, the contracting officer did not review the sub-contracts to ensure that they
were awarded in compliance with applicable sections of the FAR or to ensure that best
value was obtained. Prior to approval of a center-awarded sub-contract, the contracting
officer reviews the documents provided and signs off on a sub-contractor review
checklist. Per FAR Subpart 44.2, under the terms of cost reimbursable sub-contracts,
the contractor must request the Contracting Officer’s consent prior to entering into
specified sub-contracts. Prior to approving center sub-contracts, the Contracting Officer
is responsible for reviewing the request and supporting data.




3
    The midpoint estimate was $196,606.

                                             9                  Adams Red Rock Sub-Contracting
                                                                   Report No. 26-11-002-03-370
                                         U.S. Department of Labor – Office of Inspector General




RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training require
Adams Red Rock to:

   1. Strengthen Adams Red Rock SOPs pertaining to procurement. Revisions need
      to include the required documentation and evaluator signatures and the specific
      steps to ensure all sub-contracts and purchases resulting in expenditures
      between $3,000 and $25,000 are advertised, evaluated, awarded, and costs
      supported as required by the FAR.

   2. Repay questioned costs as appropriate. This includes ETA making a final
      determination as to the amount of excess funds paid by the contractor to be
      recovered while recognizing the value of goods and services received.

   3. Provide training as needed to ensure procurement staff are proficient on FAR
      requirements.

   4. Develop procedures for providing and documenting supervisory oversight of
      center procurement.

Also, we recommend that the Assistant Secretary require the Regional Job Corps Office
and ETA contracting officer to:

   5. Strengthen procedures to ensure Adams Red Rock complies with the FAR when
      awarding sub-contracts and purchase orders and claiming related costs. This
      should include reviewing Adams Red Rock’s procurement activities for FAR
      compliance during on-site center assessments.

   6. Review all future Adams Red Rock sub-contracts for FAR compliance prior to
      approval.

We appreciate the cooperation and courtesies that ETA personnel and Adams officials
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                         10                  Adams Red Rock Sub-Contracting
                                                                Report No. 26-11-002-03-370
            U.S. Department of Labor – Office of Inspector General




Exhibit 





            11                  Adams Red Rock Sub-Contracting
                                   Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              12                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General


                                                                                        Exhibit
Sub-Contracts Awarded Not Using Best Value


Sub-Contractor                                    Total Costs Questioned Costs
Philadelphia College of Osteopathic Medicine        $131,107          $131,108
Behavioral Health Services                            $85,672          $85,672

TOTALS                                                                         $
                                                                               	 216,780


Philadelphia College of Osteopathic Medicine (PCOM)

   •		 FAR Subpart 44.202-2(a) (5) requires adequate price competition be obtained or
       its absence properly justified. We found no evidence within the file to support
       adequate price competition.
   •		 FAR Subpart 44.202-2(a) (7)) requires the contractor to have a sound basis for
       selecting and determining the responsibility of the particular subcontractor. We
       found no evidence within the file to support selecting the sub-contractor.
   •		 FAR Subpart 44.202-2(a)(8)) requires the contractor to perform adequate cost or
       price analysis or price comparisons and obtain certified cost or pricing data and
       data other than certified cost or pricing data. We found no evidence within the file
       to support cost or price analysis.
   •		 In addition, the sub-contract between Adams Red Rock and PCOM was signed
       by the Center Director and PCOM on September 27, 2010, and the Philadelphia
       Regional Contracting Officer did not approve the consent to place sub-contract
       until November 22, 2010.

Behavioral Health Services

   •		 FAR Subpart 44.202-2(a) (5) requires adequate price competition be obtained or
       its absence properly justified. We found no evidence within the file to support
       adequate price competition.
   •		 FAR Subpart 44.202-2(a) (7)) requires the contractor to have a sound basis for
       evaluating and selecting the particular sub-contractor. We found no evidence
       within the file to support selecting the sub-contractor.
   •		 FAR Subpart 44.202-2(a)(8)) requires the contractor to perform adequate cost or
       price analysis or price comparisons and obtain certified cost or pricing data and
       data other than certified cost or pricing data. We found no evidence within the file
       to support cost or price analysis.
   •		 In addition, the sub-contract between Adams Red Rock and Behavioral Health
       Services was signed by the Center Director and PCOM on August 31, 2010, and
       the Philadelphia Regional Contracting Officer did not approve the consent to
       place sub-contract until November 22, 2010.



                                            13                 Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              14                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





               15                  Adams Red Rock Sub-Contracting
                                      Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              16                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

Job Corps is authorized by Title I-C of WIA of 1998 and is administered by ETA’s Office
of Job Corps under the leadership of the National Director and supported by a National
Office staff and a field network of 6 Regional Offices. The Job Corps program’s budget
for FY 2010 totaled about $1.7 billion.

The purpose of Job Corps is to assist disadvantaged youth ages 16 through 24 who
need and can benefit from a comprehensive program, operated primarily in the
residential setting of a Job Corps Center (JCC), to become more responsible,
employable, and productive citizens by developing employability skills. Its training
activities and living facilities are housed within 125 centers throughout the country.

Adams Red Rock is located in Lopez, Pa., at the top of Red Rock Mountain, 2,449 feet
above sea level, on a former United States Air Force base. On March 15, 2010, Adams
was awarded contract number DOL-J10-PA-0001 to operate Adams Red Rock effective
May 1, 2010. The contract was for operation of Adams Red Rock for the base 2-year
period May 1, 2010, through April 30, 2012, at an estimated cost of $19 million. In
addition, Adams was awarded the 3 option years, for the period May 1, 2012, through
April 30, 2015, at a cost of approximately $10 million per year. Adams Red Rock has an
authorized On-Board Strength of 318 students.




                                            17                 Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              18                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

 Did Adams Red Rock award sub-contracts and claim costs in accordance with the
 FAR?

Scope

The audit covered sub-contracts managed and expenditures incurred by Adams Red
Rock from May 1, 2010, to December 31, 2010. We reviewed the two sub-contracts,
totaling $216,779, managed by Adams Red Rock during this period. In addition, we
reviewed a statistical sample of 54 expenditures more than $3,000, totaling $448,550,
from 103 expenditures totaling $747,177. These expenditures were generally initiated
by purchase orders and were separate items from the two sub-contracts we reviewed.
Adams’ contract to operate Adams Red Rock was not included in our review because it
was awarded by ETA. In addition, no Adams Red Rock sub-contracts were awarded by
ETA.

We performed field work at the Red Rock JCC located in Lopez, Pa., where we
reviewed files, supporting documents, and performed interviews. In addition, we
interviewed the ETA contracting officer located in Philadelphia, Pa.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.

Methodology

To accomplish the audit objective, we obtained an understanding of FAR, Job Corps,
and Adams Red Rock’s procurement regulations and policies. We conducted interviews
with Adams Red Rock officials responsible for procurement and invoice payment.

To assess Adams Red Rock’s internal controls over procurement, we interviewed key
center staff; reviewed applicable Job Corps requirements, including the Job Corps PRH,
applicable sections of the FAR, contract provisions, and Adams Red Rock’s SOPs;


                                          19                  Adams Red Rock Sub-Contracting
                                                                 Report No. 26-11-002-03-370
                                            U.S. Department of Labor – Office of Inspector General


analyzed the most recent Job Corps Regional Office Center Assessment and Adams
most recent corporate center assessment and performed a walkthrough of the
procurement process. We identified and evaluated the internal controls that Adams Red
Rock, Adams, and Job Corps had in place over the monitoring and approval of sub-
contracts as of May 2011.

Specifically, we obtained all supporting documents pertaining to the announcing,
evaluating, awarding, and payment of invoices of the two sub-contracts and 54
expenditures. We tested the two sub-contracts’ files for completeness by conducting a
meeting with the Adams Red Rock contracting officer and reviewing the contract files.
We tested the check register for completeness by verifying check dates that were
issued during our audit period, by verifying that all checks were in sequential order, and
by verifying that missing checks had been voided by Adams Red Rock.

The universe used in our audit consisted of the two sub-contracts and the 103
expenditures more than $3,000. We tested the two sub-contracts. For expenditures we
stratified the universe into 5 strata. Each of the 5 strata was based on the dollar amount
of the expenditures. The schedule provides details on the strata’s range of
expenditures, the number of expenditures in each strata, and the expenditures selected
for audit within each strata.


                                                  Number of
                                                                      Number of Checks
 Strata          Range of Checks                 Checks in the
                                                                      Selected For Audit
                                                    Strata

      1.                $18,000 - $32,087               2                         2

      2.                $14,000 - $17,999               3                         3

      3.                 $9,900 - $13,999              20                         12

      4.                  $5,000 - $9,899              36                         19

      5.                  $3,000 - $4,999              42                         18

 Totals                                               103                         54


For sub-contracts issued by Adams Red Rock, we obtained the contract file and all
supporting documentation provided by Adams Red Rock. We reviewed the two sub-
contracts, totaling $216,780, managed by Adams Red Rock during May 1, 2010, to
December 31, 2010. We tested each of the sub-contracts and expenditures for
compliance with applicable sections of the FAR, including awarding sub-contracts
based on fair and open competition, cost or price analysis, and responsibility checks

                                            20                  Adams Red Rock Sub-Contracting
                                                                   Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General


(FAR Subpart 44.202-2). We reviewed 100 percent of the invoices for the two sub-
contracts to determine whether payments were supported as required by FAR Subpart
52.216-7.

For purchase orders issued by Adams Red Rock, we obtained the check register for the
audit period. From the check register we removed checks related to payroll, checks less
than $3,000, payments related to the two sub-contracts reviewed, and payments for
utilities. This left a universe of 103 expenditures, totaling $747,177. We used stratified
random sampling to select a sample of 54 expenditures, totaling $448,550.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing Adams Red Rock’s policies and
procedures related to procurement. We confirmed our understanding of these controls
and procedures through interviews and documentation review and analysis. We
evaluated internal controls used by Adams Red Rock for reasonable assurance that the
awarding of sub-contracts and payment of invoices were done according to Federal and
Job Corps requirements. Our consideration of Adams Red Rock’s internal controls for
awarding of sub-contracts and payment of invoices would not necessarily disclose all
matters that might be reportable conditions. Because of inherent limitations in internal
controls, misstatements, losses, or noncompliance may nevertheless occur and not be
detected.

To achieve the assignment’s objective, we relied on the computer-processed data
contained in Adams Red Rock’s check register. We assessed the reliability of the data
by (1) performing various tests of required data elements, and (2) interviewing Adams
Red Rock financial officials knowledgeable of the data. Based on these tests and
assessments, we concluded the data was sufficiently reliable to use in meeting the audit
objective.

Criteria

We used the following criteria to perform this audit:

      Federal Acquisition Regulations,
      Job Corps Policy and Requirements Handbook, and
      Adams Red Rock Standard Operating Procedures




                                            21                 Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              22                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms

Adams            Adams and Associates, Inc.

Adams Red Rock   Red Rock Job Corps Center, operated by Adams

DOL              U.S. Department of Labor

ETA              Employment and Training Administration

FAR              Federal Acquisition Register

OIG              Office of Inspector General

PCOM             Philadelphia College of Osteopathic Medicine

PRH              Policy and Requirements Handbook

SOP              Standard Operating Procedures




                                       23                 Adams Red Rock Sub-Contracting
                                                             Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              24                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                                       U.S. Department of Labor – Office of Inspector General


                                                                                                        Appendix D
ETA's Response to Draft Report



     U.S. Department of Labor                    Assistant Secretary 'or
                                                 Employmenl and Training
                                                 WastlinglOn. D.C. 20210


            SEP 29 20n

         MEMORANDUM FOR:               ELLIOT P. LEWIS
                                       Assistant Inspector General for Audit

         FROM:                         JANE OATES          X1A1.9 . ~
                                       Assistant Secretary U'- .- -

         SUBJECT:                      OIG Audit Draft Report No. 26·11·002·03·370,
                                       "Adams and Associates Did Not Ensure Best Value in Awarding
                                       Sub-Contracts at the Red Rock Job Corps Center"

         This memorandum responds to the subject draft audit report, dated September 9, 20 11 , Draft
         OIG Audit Report No. 26·11·002·03·370, "A dams and Associates Did Not Ensure Best Value In
         Awarding Sub·Contracts at the Red Rock Job Corps Center. " We appreciate the opportunity to
         provide input to this draft audit report and reiterate that Job Corps center operators are not
         subject to all aspects of the Federal Acquisition Regulation (FAR), but are accountable to the 13
         considerations identified in FAR Part 44.202·2, the subcontracting consent limitations identified
         in FAR 44.203, and an evaluation of contractor's purchasing system under FAR 44.303 .

         Our responses to the draft audit report's recommendations follow:

         OIG Rec:ommeodatioo I: Strengthen center SOPs pertaining to procurement. Revisions need
         to include the required docwnentation and evaluator signatures and the specific steps to ensure
         all su~ontracts and expenditures between S3,000 and S25,000 are advertised, evaluated,
         awarded, and costs supported as required by the FAR.

         Rnpoo!e: Management accepts this recommendation in part.

         Adams and Associates (Adams) procurement polices minimally must meet the requirements o f
         FAR Pan 44.303 and FAR Part 52.244·5. Adams Procurement SOPs should be based on sound
         procurement principles such as ensuring the solicitation is clear, advertised, evaluated in a fair
         manner, and awarded at a fair and reasonable price. The ETA Office of Contracts Management
         (OCM) recently completed a Contractor Purchasing System Review of Adams East Cost
         corporate headquarters in Columbia, Maryland. The draft report will be submitted 10 the
         cognizant Contracting Officer, which includes recommendations to improve Adams procurement
         SOPs. A copy of the final report will be available upon request. It is important to note that
         cUlTCntly Adams does not have an approved purchasing system.

         We consider this recommendation resolved.




                                                         25                     Adams Red Rock Sub-Contracting
                                                                                   Report No. 26-11-002-03-370
                                             U.S. Department of Labor – Office of Inspector General




                                                2



OIG Recommendation 2: Repay questioned costs totaling 5334,675. This includes ETA
making a final determination as to the amount of excess funds paid by the contractor to be
recovered while recognizing the value of goods and services received.

Response: Management accepts this recommendation in part.

The OIG computed questioned cost based upon the following findings. Our remarks are
included with each find ing below:


             Table 1: Instances of FAR non-compliance resulting in questioned costs

                                              Sub.contracts above            Expenditures above
                        FAR                   $25,000 I amount of             $3,000 f amount of
                Non-compllance
                                               Questioned costs              ---.!LuB.tioned costs
              (a) Sub-contract award
                                                    2 of2 (100%)
               evaluation factors not                                            Not Applicable
                                                      $216,780
             developed and employed
             (b) Improper awarding of                                       Sample: 11 of 59 (19%)
                                                    Not Applicable
           Blanket Purchase Agreement                                               $97,198
            (c)lnadequate sole source                                        Sample: 2 of 59 (3%)
                                                    Not Applicable
                    justification                                                   $20,697
                     Totals                         2 of2 (100%)            Sample: 13 of 59 (22%)
                     $334,675                         $216,780                    $117,895




      (a) OIG needs to clarify specificall y what is meant by "award not based on proper
          evaluation" and the FAR citations annotated. The FAR requi res that the contractor
          have a sound basis for awarding a contract, but not that it publish an RFP inclusive of
          evaluation factors as required for Federal contracting officials.
      (b) See response a.
      (c) We agree with the OIG, Adams did not documenl the justification for the sale source
          awards. We will initiate proceedings to reclaim the excess funds paid by the contractor
          while recognizing the value of the goods and services received. We anticipate that the
          cost recovery wi ll be less than the S 117,895 questioned by the OIG.

We consider this recommendation resolved.

OIG Re~ommendation 3: Provide training as needed to ensure procurement staff is profi cient
on FAR requirements.

R esponse: Management accepts this recommendation.




                                              26                        Adams Red Rock Sub-Contracting
                                                                           Report No. 26-11-002-03-370
                                             U.S. Department of Labor – Office of Inspector General




                                               J



All Job Corps center operators arc required by the Job Corps Policy and Requirement Handbook
(PRH) to provide a minimum of 5 hours of professional development training, appropriate to the
work performed, to all center slatT. OeM will ensure Adams provides appropriate procurement
training to staff responsible for purchasing center items and awarding center support sub­
contracts.

We consider Ihis recommendation resolved.

OIG Recommendation 4: Develop procedures for providing and documenting supelVisory
oversight of center procurement.

Response: Management accepts this recommendation in part.

oeM will d irect Adams to update SOPs to provide for regulatory and statutory oversight, rather
than supervisory oversight.

We consider this recommendation resolved.

OIG Recommendation 5: Strengthen procedures to ensure Adams Red Rock complies with the
FAR when awarding sub-contracts and purchase orders and claiming related cost. This should
include reviewing Adams Red Rock's procurement activities for FAR compliance during on-site
center assessments.

Response: Management accepts this recommendation in part.

OCM will ensure Adams complies with regulatory requirements. OeM conducted a Contractor
Purchasing System Review of Adams East Coast corporate in September 2011. The review is
currently being analyzed prior to the Contracting Officer (CO) approving Adams purchasing
system. As Adams does not have an approved purchasing system, the majority of their sub­
contract activity must receive CO approval prior to entering into contractual agreements on
behalf of the Job Corps center operated. Further, OCM will provide tools to COTRslProject
Managers to assist in the monitoring of the purchasing practices of Adams.

We consider this recommendation resolved.

OIG Recommendation 6: Review all future Adams Red Rock sub-contracts for FAR
compliance prior to approval.

Response; Management accepts this recommendation

Adams does not have an approved purchasing system; as such, the majority of their subcontracts
must receive CO approval prior to the contract's execution. OCM will provide additional tools
to regional COs to ensure a thorough review of potential subcontract agreements ensuring:
proper market research, advertisement, competition, basis of award, and cost/price analysis or
comparison has been complcted prior 10 granting approval 10 the contractor.




                                              27                     Adams Red Rock Sub-Contracting
                                                                        Report No. 26-11-002-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              28                 Adams Red Rock Sub-Contracting
                                    Report No. 26-11-002-03-370
                                                                      U.S. Department of Labor – Office of Inspector General


                                                                                                                                   Appendix E
Adams Response to Draft Report



                        ADAMS                      @ A SSOCIATES, I NC.
    Marns an<.l A ..." x,:ia{l;!; , In,: . • 10395 Double It Bl vJ . • R~n", Nl'V,WJ 11%2 1 • l'lw>uc 775·34S-0'}()() • rJ x 77S · .~4K · ln23




                                                          September 23, 201 1




         Mr. Elliot p, Lewis
         Assistant Inspector General for Audit
         Office of Inspector General, U.S. Dept. of Labor
         200 Constitution Ave" N,W. Room 8-5512
         Washington, D.C. 20210

         Dear Mr. Lewis:

         Adams & Associates. Inc ("Adams") provides this reply to the September 12, 2011 Draft Audit
         Report by the Department of Labor (DOL) Office ofInspector General (OIG) regarding Adams's
         government contract with the DOL to operate the Red Rock Job Corps Center ("Red Rock
         ICC,,).

         We fundamentally and strongly disagree with the Draft Audit Report in its entirety. We refute
         and disagree with the OIG's entire basis for imposing requirements upon Adams - that is, the
         OIG's misapplication of all of the FAR provisions cited the Draft Audit Report. We wholly
         oppose the OIG's overreaching draft finding that "Adams Red Rock did 001 ensure best value
         was received by the government when awarding sub-contracts and purchase orders." We
         disagree with the OW's specific findings, as well as the recommendation that Adams repay
         questioned costs, particularly in light of the fact that the 0 10 questioned costs "due to non·
         compliance with the FAR." Support for our viewpoint is detailed throughout this letter. In many
         instances, because we havc already provided much of this infonnation through our response to
         the OIG's Slatement of Facts and our response to the OIO's " Discussion Draft" regarding the
         Red Rock lCC, this will be the third time we provide these specific substantive responses in
         writing. '

         Adams strongly disagrees with the OIO's draft finding that " Adams Red Rock did not comply
         with the FAR [Federal Acquisition Regulat ion] when awarding subcontracts and selecting
         vendors," for the fundamental reason that the FAR docs not contain any of the alleged
         "requirements" on which the OIG bases its analysis. Ever since this audit began last May, the
         010 has insisted that Adams, as a govenuneot contractor awarding subcontracts, is subject to the
         same procedural requirements that the FAR imposes on the government itself when it awards
         prime contracts to its own suppliers. lbat is not the law.

         I In response to the KDiscussion Draft" Report ie ued by the OIG in August 2011, we prepami a written respome
         iLDd submitted it to the OtG on August 22, 201 L For the convenience of the OIG, that letter is attached hemo and
         we request tb.at a complete oon-edited full·text venion of that Response be incorporated as part of the Final Audit
         Report issued by the OIG.


                                                                      r




                                                                          29                          Adams Red Rock Sub-Contracting
                                                                                                         Report No. 26-11-002-03-370
                                                         U.S. Department of Labor – Office of Inspector General




Adams has repeatedly requested the DIG to support the underlying premise of this audit by
simply identifying where in the FAR. or in Adams's contract with DOL, any of these alleged
"requirements" can be found. In response, the DIG has still not identified a single applicable
'l'equirement." For a long time, in discussions and in draft write-ups shared with Adams, the
DIG neither cited nor quoted any specific FAR provisions. Subsequently, after repeated urging
by Adams, the orG provided a " Discussion Draft" which cited, but conspicuously declined to
quote, at least seven (7) FAR provisions that supposedly appHed here. In response, Adams had
to prepare a detailed analysis that showed, by direct verbatim quotes, that each and every one of
the seven supposedly applicable FAR provisions cited by the OIG pertained on its face only to
contract award decisions by the government contracting officer at the prime contract level, and
not to subcontract award decisions by the prime contractor, in this case Adams. Nor was a single
one of those FAR provisions contractually flowed-down to Adams in Adams's prime contract.
In our Response to the Discussion Draft, we infonned the DIG that in the absence of such flow­
downs, it is overreaching, unfair and incorrect to issue audit findings and to question payment for
valuable services rendered, on the incorrect premise that such contractor "requirements," though
totally absent from the FAR and the contract, are nonetheless "applicable."

Now, the DIG has responded with this new Draft Audit Report, almost completely withdrawing
(without acknowledgement of error) its previous reliance upon the inapplicable FAR provisions,
and replacing them with citations (but again, no quotation) of five different and previously
unmentioned FAR provisions, namely FAR 44.202-2(a)~), (aX7), (aX8) and (aXi l) and 9.104-
I, as the legal basis for its fmdings of " noncompliance.' See Draft Audit Report at pg. 6. Yet
again, Adams bears the burden and expense of having to explain what should be obvious on the
face of these new citations: that they 100 do not impose any "requirements" on the contractor.
Nor are they contractually flowed-down to Adams, any more than the previously ciled FARs
were. Accordingly, we provide a brief analysis and discussion of these newly-cited FAR
sections, their background, and their inapplicability 10 the audited transactions here:

NEWLY CITED FAR PRQVISIONS ARE INAPPLICABLE TO ADAMS

FAR Subpart 44.2 pertains to the circumstances in which a government prime contractor must
"notify" the government's contracting officer of, and obtain the contracting officer's "consent"
for, the prime contractor's award of certain types of subcontracts under certain conditions. The
"consent" process, when applicable at all, is very generally defined. Thus FAR Subpart 44.2
nowhere states comprehensively or specifically what is necessary and sufficient for a subcontract
to obtain the government's consent. It contains only a very short list of circumstances in which
consent shall not be granted, none of which are present here. FAR 44.203(b). Otherwise it states
in general tenns that the contracting officer "shall ensure that the proposed subcontract is
appropriate for the risks involved and consistent with cUITent policy and sound business
judgment." FAR 44.202-1 (b). Government consent to subcontracts, when required, is obviously
intended to be a flexible, case-by-case process in which the contracting officer's discretion is

2 The OtO continues to rely improperly on FAR 6.302 (see Draft Audit Report, pg. 3) and FAR 32.90S (Draft Audit
Report, pg. 6), previously referenced in the DlO's Discussion Draft. Accordingly, below, this Response reiteTaIes
its analysis showing that these FAR provisions on their face pertain onl)' to contract award deo;:isions b)' the
government contracting officer at the prime level, and not to subcontract award decisioDli by Adams.


                                                        2




                                                            30                        Adams Red Rock Sub-Contracting
                                                                                         Report No. 26-11-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General




respected and recognized as essential. The section cited now by the 010, FAR 44.202-2(a),
therefore, begins as follows: "The contracting officer responsible for consent must, at a
minimum, review the request and supporting data and consider the following: .... " (Emphasis
added.) The FAR goes on to list thirteen (13) Questions among those to be "considered," four of
which are cited by the 0 10 (Draft Audit Report, pg. 6) as the basis of its findings, namely:

   •   (a)(5) "Was adequate price competition obtained or its absence properly justified?;
   •   (a)(7) "Does the contractor bave a sound basis for selecting and detennining the
       responsibility of the particular subcontractor?";
   •   (a)(8) "Has the contractor perfonned adequate cost or price analysis or price comparisons
       and obtained certified cost or pricing data and data other than certified cost or pricing
       dataT'; and
   •   (a)(11) - "Has the contractor adequately and reasonably translated prime contract
       technical requirements into subcontract requirementsT'.

Nowhere does the FAR say that consent is to be denied, or granted, depending on the answers to
any, some, or all of these questions. It is on the basis of these generalities, which the government
contracting officer is simply to "consider," that the OlO now seeks to impose on the contractor
various specific "requirements" alleged on pages 6-9 of the Draft Audit Report: a supposed
requirement to state evaluation "factors and "significant sub factors," a supposed requirement for
a ''means of rating [vendor] bids and evaluating the past performance of the bidders," a
supposedly required "justification for sole-source procurement," etc. All of these arc familiar
requirements in certain instances when the government awards a prime contract, or even for a
subcontract when these top-level requirements arc flowed-down to lower levels (which is not the
case here). However, it defies common sense and plain English to contend that these
requirements arc imposed on a contractor's subcontract awards simply on the basis of a few
generally-phrased questions concerning what a government contracting officer must "consider"
when deciding whether to consent.

Furthermore, the OIO should be aware of another fundamental point about "Consent to
Subcontracts" under FAR 44.2: even if the contracting officer's "considerations" regarding
consent 10 subcontracts could somehow provide the basis for imposing specific "requirements"
upon Adams, (which they cannot), the "consent" process does not apply 10 BPAs (blanket
purchase agreements). A "subcontract" must be a "contract" in the fll"St place. See FAR 44.101,
definition of "subcontract." But I I of the 13 supposedly improper expenditures noted in the
Draft Audit Report (see p. 8) pertain to "BPAs," which arc not contracts themselves: they are just
agreements that govern the tenns of future potential contracts (e.g., task orders or purchase
orders that may be issued in accordance with the BPA). See FAR 16.703«a}(3) ("A basic
ordering agreement is not a contract"); 16.702(a)(2) ("A basic agreement is not a contract.");
Crewzers FireCrew Transport, Inc. v. United States, US Court of Federal Claims No.10-819C,
January 28, 2011 at p. 13 ("It is well established that BPAs are not contracts.'1, citing numerous
other cases, including Modern Sys. Tech. Corp.v. United States, 24, Cl. Ct.36O, 362-63 (1991),
affd and adopted,979 F.2d 200, 202, 204 (Fed. Cit 1992) ("blanket pricing agreements" "do Dot
create binding rights or obligations because they contain contract clauses that apply to future
contracts between the parties); and Prod. Packaging, ASBCA No. 53662, 03-2 BCA 32388
(ASBCA 2003) ("[A] BPA is nothing more than an agreement of tenns by which the


                                                 )




                                                     31                    Adams Red Rock Sub-Contracting
                                                                              Report No. 26-11-002-03-370
                                                          U.S. Department of Labor – Office of Inspector General




Government could purchaSe."). See also, FAR 2. 10 1 (definition of ' contract": "murually binding
legal relationship obligating the seller to fwnish the supplies or services . .. and the buyer to pay
for them."). Hence, even if the FAR Part 44.2 "considerations" for "consent" could be the basis
for specific requirements imposed on a contractor, they would not apply to the US Foods and
Sysco BPAs audited here, because BPAs are not even "contIacts" to begin with. (See Draft
Audit Report, pg. 8.)

Only the Philadelphia College of Osteopathic Medicine (PCOM) and Behavioral Health Services
(BHS) subcontracts here were subject to the FAR Part 44.2 "consent" requirements that are
imposed upon comracting officers. The files confinn that both of these were duly and expressly
consented to by the DOL contracting officer, with multiple sign-offs from additional DOL
personnel. There is no indication that the contracting officer did not "consider" all relevant
factors in this process, and in any case, even if there was, such failure to consider on the part of
the contracting officer would not constitute any non~mp l iance on the part of Adams.

The 010 also cites, for the first time in its Draft Audit Report, FAR 9.104·1. This provision sets
forth General Standards for detennination of whether a prospective contractor is responsible.
The policy underlying FAR 9.104-1 is set forth in FAR 9.103(b), which states that "No purcbase
or award shall be made unless the contracting officer makes an affirmative determination of
responsibility." (Emphasis added.) Once again, on its face, this provision applies to decisions of
government contracting officers in selecting and contracting with prime contractors; nowhere
does the provision indicate that prime contractors must follow these General Standards in
selecting their subcontractors. Nor was this FAR provision contractually f1owed-down to Adams
in Adams' s prime contract with DOL.

The 0I0' s misplaced reliance on these inapplicable FAR provisions, at the eleventh hour, is not
only incorrect, it is yet another example of the oro's improper and unfair overreaching,
particuJarly in light of the hundreds of thousands of dollars that the 010 questions based on its
misapplication of these FAR provisions. Rather than continue down this inappropriate and
erroneous path, the OIG has a duty in its Final Audit Report withdraw all findings based on these
inapplicable FAR provisions.




The OIG in its Draft Audit Report repeats its reference to and reliance on two other FAR
provisions that are inapplicable, despite soliciting and obtaining from Adams in Adams'
Response to the OIG 's Diseussion Draft, a detailed textual analysis explaining why these
provisions are inapplicable to Adams. The OIG in its Draft Audit Report disregards Adams'
explanations. Thus, we reiterate our analyses with respect to FAR 6.3023 and 32.905 :

FAR 6.302·2 describes circumstances under whicb agencies need not conduct full and open
competition. On its face, this provision does not apply to prime contractors. Specifically, FAR
6.302·2 provides: "Wben the agency's need for the supplies or services is of such an unusual and

JTIlt DnIft Audit Report, p. 3 states that for two txptnditlins, Adams "did not adequately justify sole souree
procurerntnt as ~uired by the FAR 6.302."


                                                          4




                                                              32                        Adams Red Rock Sub-Contracting
                                                                                           Report No. 26-11-002-03-370
                                                  U.S. Department of Labor – Office of Inspector General




compelling urgency that the Government would be seriously injured unless the agency is
permitted to lintit the number of sources from which it solicits bids or proposals, full and open
competition need not be provided for." (Emphasis added.) 1ms provision bas not been flowed
down to Adams. Accordingly, this provision does not apply to Adams as a prime contractor that
hires a vendor or subcontractor.

FAR 32.905 pertains to the content and payment of invoices submitted by contractors. The
requirement to maintain supporting documentation for allowable costs is at FAR 31.201-2(d) and
FAR 52.216-7 (Allowable Cost and Payment C lause).




Assuming for the sake of argument that "applicable" FAR provisions were not complied with
(which, as previously stated, Adams denies), the OIG has used improper methodologies and
made several inaccurate fUldings about the subcontracts and expenditures at issue. Some of the
same improper methodologies that the OIG employed in its Discussion Draft are blindly
reiterated in the OIG's Draft Audit Report, without ever addressing the merits of Adams'
responses to those items in the Discussion Draft. Accordingly, we reiterate our analyses and
disagreement with those approaches.

        I. The QIG Qverreaches by Questioning the Entire Cost of Each Subcontract at Issue

We have a strong objection to the QIG's detennination of the amount of questioned costs. The
QIG's methodology has evidently been to question the entire subcontract value of any
subcontract that was awarded according to procedurcs that have .b een found "noncompliant."
With respect to the physician's services contract that Red Rock JCC awarded to Pennsylvania
College of Osteopathic Medicine ("PCQM), the OIG questioned the entire amount of the
$131,108 contract. (Draft Audit Report, pgs. 7-8.) With respect to the mental health services
contract the Red Rock JCC awarded to Behavioral Health Services ("BHS',), the QIG questioned
the entire $85,672 subcontract amoWlt. (Draft Audit Report, pg. 8.) As we previously explained
in our response to the DIG's Discussion Draft, it is illogical and wrong to question the
allowability of the entire subcontract value. For both of the subcontracts at issue in the audit, the
Job Corps received valuable consideration (services rendered) in return for its payment to Adams
of these subcontract costs. The detriment theoretically suffered by the Job Corps if there had
been a procedural noncompliance (e.g., failw-e to use an allegedly required evaluation factor;
failure to provide an allegedly required "sole source justification"; failure to obtain consent to
subcontract) obviously does not mean that the Job Corps received no value for the services
represented by that subcontractor cost. The value of such an alleged procedural noncompliance,
if ODe existed, would be only a fraction of the total subcontract value. To question and disallow
the entire subcontract value would amount to a windfall for the government: valuable services
for free, which would be illegal under the Anti-Deficiency Act. The amount of costs in question
here, even assuming any were properly questionable, should be no more than a fraction of the
cited subcontract values, to represent the reasonable value to the government of the procw-ement
procedures at issue.




                                                 ,



                                                     33                     Adams Red Rock Sub-Contracting
                                                                               Report No. 26-11-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General




The 010 in its Draft Audit Report minimally acknowledges the merits of Adams' s analysis,
noting in a footnote: "We questioned the entire value of the sub<ontracts. A fina1 determination
will be made by ETA as to the amount of excess funds paid by contractor to be recovered while
recognizing the value of goods and services rendered." (Draft Audit Report, pg. 2, note I.)
While Adams appreciates this small, implied acknowledgement by the OIG, the more salient
point is that the OIG continues to question the entire value of hundreds of thousands of costs for
valuable services rendered. This leave Adams - well over a year after inception of the audit and
after several rounds of submitting substantive information and costly legal analysis to the 010 -
in an unsettled state without any information as to the true amount of costs in dispute. This
methodology imposes an unjust burden on Adams.

Overreaching even further, the 010 continues to question costs that Adams has not yet incurred,
and the Government has not yet paid. For instance, the two-year subcontract with PCOM began
in 2010, and is for S131,108. However, during the audit period the total costs incurred for
services rendered by PCOM were S42,873, and the total costs incurred to date are S95,782. The
twa-.year subcontract with BHS also began in 2010, and is for S85,672. However, during the
audit period the total costs incurred for services rendered by BHS were only S12,908 and the
total costs incurred to date are S32,365.

       2. The OIG Provides No Basis for its Supposed Sampling Methodology

In addition, with respect to the OIO' s sample of 54 expenditures, we also take issue again with
the ~IG's unexplained ''projection'' of questionable costs based on extrapolation from a small
sample of transactions. (See Draft Audit Report at page 9, []otes 2 and 3.) We brought this
impropriety to the OIG' s attention in our response to the Discussion Draft Report, but the OIG
docs Dot address it in its Draft Audit Report. Instead, o[]ce again, the 010 provides no
explanation for its ''95 percent confidence" level in its ''projections,'' or any infonnation about
how the samples were selected, why they are a reliable basis for ''projection,'' and how the
"projection" was determined, yet large swns are questioned on the basis of this unexplained
methodology.

...
In addition to the above-described approaches that the 010 recycled from its Discussion Draft
Report, for the first time in its Draft Audit Report, the OIG has made a new finding with which
we disagree.

       3. The OIG Improperly Recommends That All Future Adams Red Rock SUkqntracts
          Be Reviewed for FAR Compliance and Approval Prior to Award

The OIG recommends that ETA contract persoWlei and Job Corp~ regional staff review all future
Adams Red Rock sub<ontracts for FAR compliance and approval prior to awarrl. (See Draft
Audit Report, pgs. 3 and 10) Such a recommendation, if implemented, would completely defeat
the purpose of using the streamlined CPSR system, a righ! that Adams' Red Rock JCC has
earned by virtue of the eontracting officer's consent. In addition, requiring this additional layer
of approval on every subcontract - no matter the subcontract type, subcontract value, services



                                                ,



                                                  34                      Adams Red Rock Sub-Contracting
                                                                             Report No. 26-11-002-03-370
                                                   U.S. Department of Labor – Office of Inspector General




provided, or other tenns - would be a completely inefficient means of doing business. Indeed,
the Red Rock lCC has only one Purchasing Agent who processed almost 2000 tmnsactions (in
purchase orders alone) during the one-year contract period from 5-1-2010 to 4-30-2011. We are
concerned that the DIG's expectations cannot be reasonably met, would require significantly
increased Center staffing at the Red Rock JCC, and may be so cwnbersome that student and
Center needs will suffer. Furthermore, yet again, the orG appears to be taking the position that
Adams, as a Job Corps Center opemtor, shou1d be held to the same requirements as Government
Agency Contracting Officers. This is particularly incongruous given that Job Corps Contracting
Officers typically process only four or five major procurements per year, with an Assistant and a
Proposal Review Team. In addition, the DIG's recommendation is particu1arly egregious
considering that it is a corollary to the OIG's utterly incorrect findings that Adams failed to
comply with specific FAR provisions (that are in fact inapplicable to Adams as a prime

...
contractor with DOL).



In the Appendix attached to this letter, we respond in more detail regarding the specific
transactions identified in the Draft Audit Report. Notwithstanding the inapplicability of the FAR
provisions cited by the DIG, we provide some of the activities that we undertook to ensure that
our process is reasonable and offers best value to the government.

The DIG obviously feels strongly that DOL Job Corps contractors should be required to award
subcontracts in accordance with the same detailed FAR requirements that the Government itself
must observe when awarding prime contracts. Whether or not that would be a good idea, the
bottom line for this audit is that contractors are obviously not currently subject to such
requirements, neither pursuant to the FAR, nor by contractual flow-dowos. The OIG is incorrect
in its analysis, yet continues to insist on holding Adams to a standard based on inapplicable
requirements. Consequently, Adams has had to incur substantial cost trying to get across what is
really a very straightforward and obvious point. This is unjust. We request that the Draft Audit
fmdings adverse to Adams be withdrawn.




Attachments

cc;   Ray Armada. OIG Audit Director
      Michael Elliot, DIG Audit Manager
      Pal Trager, OIG Lead Auditor
      Dan Norem, Exec. v.P., Adams and Associates, Inc.
      Susan Larson, Exec. v.P. , Adam.r and Associates, Inc.
      Debbie Cavathas, Exec. Director of Finance and AdministraJion, Adarrt$ and AuociaJes, Inc.
      Glenn ~iese, CFO, Adams and Associates, Inc.


                                                   7




                                                       35                    Adams Red Rock Sub-Contracting
                                                                                Report No. 26-11-002-03-370
                                               U.S. Department of Labor – Office of Inspector General




                                         APPENDIX

Below are Adams and Associates, Inc.'s responses to the specific conccrns detailed in the OIG
audit of the Rcd Rock Job Corps Center. We have previously provided full back-up source
documentation that clearly validate the subcontracts and expenditures questioned with the Draft
Audit Report. The documentation refutes each of the OIG draft concerns. We request that these
findings be eliminated and the proposed penalties removed.

Original documents have been previously provided to the OlG and a copy is available upon
request for the Department of Labor for further review.

DIG Draft Concerns
(Drof! Audit Report pg. 7J


Table 1: Instances of FAR non-compliance resulting in questioned costs
                                Sub-contracts above     Expenditures above
              FAR
                                $25,000 I amount of      $3,OOO l amountof
       Non-compliance
                                 questioned costs         questioned costs
       Sub-contract award
      evaluation factors not       2 of2 (100%)
                                                            Not Applicable
    developed and employed.          $216,780
  FAR 44.202-2 (a) (7) and (11)
  Improper awarding of Blanket
                                                       Sample: 11 of 54 (20%)
      Purchase Agreement           Not Applicable
                                                              $97, 198
  FAR 44.202-2 (a) (7) and (11)
     Inadequate sole source
                                                        Sample: 2 of 54 (4%)
           justification.          Not Applicable
                                                              $20,697
  FAR 44.202-2(a) (7) and (11)
             Totals                2 of2 (100%)        Sample: 13 of 54 (24%)
            $334,675                 $216,780                 $117, 895


Red Rock JCC Response: Table 1

As set forth in detail in the accompanying cover letter, FAR 44.202-2(aX7) and (a)(1 1) are
provisions which a government contracting officer must consider in determining whether to give
consent to subcontracts. These FAR provisions do not impose any requirements upo n Adams as
a prime contractor. Furthermore, as set forth above, the consent to subcontracts requirements do
not apply to BPAs. Hence, Adams has nOI violated any applicable FAR provisions. (See Draft
Audit Report at pg. 5, noting that Center operators "shall follow all applicable procurement
relations, to include those contained in the Federal Acquisition Regulations (FAR)" (emphasis
added).) Because the above-cited FAR provisions are inapplicable on their face to Adams as a
prime contractor, and because these FAR provisions have not been flowed down to Adams in its
prime contract with DOL, the OIG's entire basis for questioning these costs is flawed and




                                               •



                                                36                      Adams Red Rock Sub-Contracting
                                                                           Report No. 26-11-002-03-370
                                             U.S. Department of Labor – Office of Inspector General




incorrect. There is no FAR non-compiiance by Adams. The OIG should withdraw its questioning
of all $334,675 .

OIG Draft Concern: Sub-contracts above $25,000 where FAR Non-compliance
Resulted in Questioned Costs
[Droft Audit Report pgs. 7-B}

The two sub-contracts we questioned were for physician services, including mental
health. It was critical for Adams Red Rock to ensure its students received adequate
care by evaluating the bids based on the quality of services to be provided as well as
cost. We questioned the two sub-contracts because the center did not perform a cost or
price analysis or develop and clearly state in the solicitation the factors and significant
sub-factors that affected contract award and their relative importance. Additionally, the
center did not develop a means of rating the bids and evaluating the past performance
of the bidders. Possible evaluation factors for physician services included past
performance providing services to a diverse student population, ages 16-24; evidence
of performance on similar type contracts; ability to conduct comprehensive mental
assessments, write and supervise treatment plans, and provide individual and group
therapy and training; and evidence of a license to practice in the state and of current
liability insurance coverage. We based our conclusions on the following:

OIG Draft Concern: Philadelphia College of Osteopathic Medicine (PCOM)
[Droft Audit Report pgs. 7-B}

In 2010, Adams Red Rock awarded a 2-year, $131,108 physician services contract to
Pennsylvania College of Osteopathic Medicine (PCOM). PCOM had been Adams Red
Rock's physician services provider under the last center operator. In awarding the sub­
contract, Adams Red Rock requested bids on the FadBizOps website and received two
bids. Adams Red Rock awarded the sub-contract to PCOM even though they were the
higher bidder. The center's bid evaluation records notad that the lower bidder was not
awarded the sub-contract because they were unable to identify a physician for the
center and PCOM was a longtime provider of student health care at the center.

We concluded that Adams Red Rock did not comply with FAR sections 44.202-2(a) (7)
and 44.202-2(a) (11) when selecting PCOM. The center did not perform a cost or price
analYSiS, did not use evaluation factors in its solicitation and selection processes, did
not properly document the evaluation, and did not properly justify the selection of a
higher bid. The lower bidder's proposal package did, in fact, identify a physician for the
center. Additionally, Adams Red Rock's records did not include any documentation
indicating the quality of past services provided by PCOM (e.g. , prior center operator
assessments, student surveys) and the center did not obtain approval by a Job Corps
Contracting Officer before awarding the sub-contract to PCOM as required by Adams'
contract to operate the center. As such, we questioned the entire amount of the
$131, 108 sub-contract.

Red Rock JCC Response: Philadelphia College of OsteopathiC Medicine (PCOM)



                                             9




                                                 37                  Adams Red Rock Sub-Contracting
                                                                        Report No. 26-11-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General




 As set forth in detail in the accompanying cover letter, FAR 44.202-2(aX7) and (aX il) are
provisions which a government contracting officer must consider in dctcnnining whether to give
conscnt to subcontracts. These FAR provisions do not impose any requirements upon Adams as
a prime contractor. Nor have thcse provisions been flowed down to Adams in its prime contract
with DOL. As such, thcse provisions do not imposc upon Adams any requirement to perfonn a
costs or pricc analysis, usc cvaluation factors, or justify the selection of a higher bid, etc. We
note that we have brought the inapplicability of these supposcd ''requirements'' to the attention of
OIG in the cover Ictter accompanying OUf May 13, 2011 Response to Statement of Facts
("Response to SOF"), as wcll as our August 22, 201 1 Response to the Discussion Draft
(" Rcsponse to Discussion Draft"). Notwithstanding the inapplicability of the authority cited by
the QIG, below we repeat some of the activities thai we undertook 10 ensure that our process is
reasonable and offers best value to the government:
The audit concern that price analysis or price competition was not perfonned is incorrect. In
addition to posting the Medical Subcontract solicitation on the GPE (Fedbizops), the solicitation
was posted in the local papers within Sullivan County, PA and its cnvirons. The goal was to
ensure that opportunities were granted to the local community as well as ensuring that
competitive prices were obtained, guaranteeing that the cost of the contract awarded to the
successful bidder is reasonable. In addition, the audit concern that evaluation of bids was not
properly documented is incorrect. The bids obtained from the bidders were analyzed on the bid
abstract which showed the analysis of the prices. This was part of the basis used for the award of
the contract.

As we originally infonned the OIG in our "Response to SOF", thc lowcst bidder was not selected
because included in the cover letter of the PCOM is the name of a designated Doctor to be
assigned to the sub-contract at the Red Rock Job Corp Center. This infonnation was helpful in
determining if the institution as well as the practitioner was not on the Excluded Parties List.
Unlike PCOM, Global ~I ealth Group's package has a " Line of Authority Chart" which showed
the positions and namcs of personnel that are assigned to the Red Rock Project but failed to
provide the name of the Physician who will perfonn the medical services at the center. As such,
the center could not search the Excluded Parties List System to verify that the prospective
physician is not on the debarred list. Thus, being a critical piece of the award process, we oould
not award the contract to Global Health Group even though they were the lower bidder. This
information and supporting documentation was provided to the OIG again in our Response to the
Discussion Draft, but the OIG continues to disregard it and continues to insist without support
that "[t]h lower bidder's proposal package did, in fact , identify a physician for the center.
Additionally, PCOM provided option year bid infonnation, but the Global l-lealthcare Group bid
only on the base years and no option year bids were provided.

Included in the company's proposal for the operation of the Red Rock Job Center was a
provision to continue the Medical services of the incumbent service provider of the previous
contractor for a 90 day period. In PCOM 's letter, reference was made to its long time
relationship with the Red Rock Job Corps Center, under the previous contractor and the interim
period with Adams and Associates, inc. and their willingness to continue such relationship with
center.




                                                 "


                                                  38                       Adams Red Rock Sub-Contracting
                                                                              Report No. 26-11-002-03-370
                                                U.S. Department of Labor – Office of Inspector General




With regard to the OIG's concern that the center did not obtain approval by a Job Corps
Contracting Officer before awarding the suiH:ontractto PCOM, the center presented the Consent
to Place a Subcontract form to the Philadelphia Regional Job Corps Office on 811110 and awaited
their approval to execute a subcontract with PCOM. As part of the center's responsibility to
provide medical and dental services to its student body under the prime contract, the center was
required to ensure that a contract was timely executed and as such signed the subcontract with
PCOM while awaiting the signed copy of the Consent to Place a Subcontract from the Region.
To protect the government as well as the company, there is a non-availability of fund clause
which the subcontractor agreed to prior to executing the subcontract. This term allows
termination of the subcontract in the event that government funds are no longer available to
support the Subcontract/or any reason during its term. The Regional Office signed the consent
form on 11122110.

Furthermore, as previously explamed in our Response to the Discussion Draft, although the
Regional Office signature date is after the effective date of each subcontract, this is not unusual
or contrary to past Job Corps practices. Indeed, such operating practices have been the norm at
Job Corp Centers across the country for many years, and contractors are sometimes left to await
approvals for 6 months or more. In the meantime, the JCC operators, such as Adams at Red
Rock JCC, are responsible and obligated to provide these mandated and critical services to
ensure that that students receive them, while awaiting the Contracting Officer' s approval.
Indeed, per the Job Corps Policies and Requirements Handbook ("PRH"), Adams is required to
provide certain medical services to students (who enroll at the Center on a weekly basis) within
48 hours of their enrollment. Adams's failure to meet the contractual requirement to timely
provide medical services would potentially subject it to a finding that costs should be disallowed.
Of course, Adams, as a contractor, does not have the ability to control the timeliness of
Government Contracting Officers' responses to consent requests. In this instance, the
Govenunent had full knowledge that Adams had engaged these particular subcontractors, and
not only did the Government not object, it affirmatively accepted the benefits of these services.
In fact, the Contracting Officer acknowledged that she signed the consents 10 subcontract "after
the fact," but told Red Rock operators that she informed the Auditors that the "documentation
was reasonable, and the most important -- was in the interest of the STUDENTS -- they were
signed." Hence, this situation clearly does not warrant disallowance of the costs of lhis
subcontract.

OIG Draft Concern: Behavioral Health Services

In 2010, Adams Red Rock awarded a 2-year, $85,672 mental health services contract
to Behavioral Health Services. In awarding the sub-contract, Adams Red Rock
requested bids on the FedBizOps website and received three bids. The center awarded
the sub-contract to the lowest bidder, Behavioral Health Services. Adams Red Rock
officials stated the center awards sub-contracts to the lowest bidder, unless there is a
known problem with the lowest bidder. Additionally, the center did not obtain approval
by a Job Corps Contracting Officer before awarding the sub-contract to Behavioral
Health Services as required by Adams' contract to operate the center. As such, we
questioned the entire $85,672 sub-contract amount. We concluded that Adams Red




                                                II




                                                     39                   Adams Red Rock Sub-Contracting
                                                                             Report No. 26-11-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General




Rock did not comply with the following FAR sections 44.202-2(8) (7) and 44.202-2(8)
(11) when selecting Behavioral Health Services.

Red Rock JCC Response : Behavioral Health Services

As set forth in detail in the accompanying cover leiter, FAR 44.202-2(a)(7) and (aXil ) are
provisions which a government contracting officer must consider in determining whether to give
consent to subcontracts. These FAR provisions do not impose any requirements upon Adams as
a prime contractor. No r have these provisions been flowed down to Adams in its prime contract
with DOL. As such, these provisions do not impose upon Adams any requirement to use
evaluation factors, or to justify the selection of lower bidder, etc. Notwithstanding the
inapplicability of the authority cited by the OIG, below we discuss_some of the activities that we
undertook to ensure that oUJ" process is reasonable and offers best value to the government:
The audit concern that "the Contractor did not have a sound basis for selecting and determining
the responsibility of the particular subcontractor," per FAR section 44.202-2(a)(7) is incorrect.
The Center received 3 bids through advertisement in the loca! newspaper and through
FedBizOps. The lowest bidder and incumbent from previous center operator, Behavioral Health
Services (" BHS"), was selected based on their knowledge of the PRH requirements as well as
their extensive experience working with at-risk youths. This, we believed, BHS provided the best
value to the Government.

With regard to the OlG's concern that the center did not obtain approval by a Job Corps
Contracting Officcr before awarding the sub-contract to BHS, the centcr presented the Consent
to Place a Subcontract form to the Philadelphia Regional Job Corps Officc on 8/1/ 10 and awaited
their approval to execute a subcontract with Behavioral Health Services. As part of the center's
responsibility to provide mental health services to its student body under the prime contract, the
center was required to ensure that a contract was timely executed and as such signed the
subcontract with Behavioral Health Services while awaiting the signed copy of the Consent to
Place a Subcontract from the Region. To protect the government as well as the company, there
is a non-availability of fund clause which the subcontractor agreed to prior to executing the
subcontract. This term allows termination of the subcontract in the event that government funds
are no longer available to support the Subcontract/or any reason during its term. The Regional
Office signed the consent form on 11n.2I1 O.

Furthermore, as previously explained in our Response to the Discussion Draft, although the
Regional Office signature date is after the effective date of each subcontract, this is not unusual
or contrary to past Job Corps practices. Indeed, such operating practices have been the nonn at
Job Corp Ccnters across the country for many years, and contractors are sometimes left to await
approvals for 6 months or more. In the meantime, the lCC operators, such as Adams at Red
Rock l eC, are responsible and obligated to provide these mandated and critical services to
ensure that that students receive them, while awaiting the Contracting Officer's approval.
Indeed, per the Job Corps Policies and Requirements Handbook ("PRH"), Adams is required to
provide to students (who enroll at the Center on a weekly basis) a certain minimum number of
hours ofmcntal health care provider time. Adams's fai lure to meet the contractual requirement to
timely provide mental health services would poteDtially subject it to a finding that costs should
be disallo .....'Cd. Of course, Adams, as a contractor, does not have the ability to control the


                                                12




                                                     40                   Adams Red Rock Sub-Contracting
                                                                             Report No. 26-11-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General




timeliness of Government Contracting Officers' responses to consent requests. In this instance,
the Government had full knowledge that Adams had engaged these particular subcontractors, and
not only did the Government not object, it affirmatively accepted the benefits of these services.
In fact, the Contracting Officer acknowledged that she signed the consents to subcontract "after
the fact," but told Red Rock operators that she informed the Auditors that the "documentation
was reasonable, and the most important -- was in the interest of the STUDENTS -- they were
signed." Hence, this situation clearly does not warrant disallowance of the costs of this
subcontract.

Finally, the audit concern that "the Contractor did not adequately and reasonably translate prime
contract technical requirements into subcontract requirements" per 44.202-2 (aXil) is incorrect
as well. The roles and responsibilities of the subcontractor were outlined in the scope of services
section of the subcontract agreement which was signed by both the subcontractor and the cenler,
and consented to by the Contracting Officer.

OIG Draft Concern: Expenditures above $3,000 That Resulted In Questioned Costs
[Draft Audit Report pgs. a-9}

As noted, Adams Red Rock did not comply with the FAR when awarding purchase
orders to vendors for 13 of the 54 expenditures above $3,000 tested. For 11
expenditures in our sample, the center did not evaluate the sub--contractors' ability to
satisfactorily perform the contracts by developing and employing evaluation factors to
assess bids and award the BPA. For the two other expenditures, the center did not
properly justify sole source. The following summarizes each type of non-compliance:

    •   Improper Awarding of BPA - From our sample of 54 expenditures, Adams Red
        Rock purchased food from US Foods under a BPA for 11 expenditures in our
        sample. In 2010, Adams Red Rock posted on FedBizOps a Request for
        Quotation for Food Services and received three bids, from US Foods, Sysco, and
        Keyco. Upon request by the center, the bidders submitted price quotes for
        various food products. The vendors were not consistent in the food products for
        which they quoted prices and we found no documentation in the fife to support
        how the price quotes were used in vendor selection. Adams Red Rock entered
        into two separate BPAs with US Foods and Sysco. We found no documentation
        in the file to support the rational for the awarding of the BPAs or to support the
        use of evaluation factors in the solicitation (FAR 44.202). As such, we questioned
        the $97, 198 spent for food under the BPAs.
    •   Inadequate sole-source justification - From our sample of 54 expenditures,
        Adams Red Rock sale sourced two purchases. In both instances, the center was
        not in compliance with the FAR requirement for fair and open competition.
        SpeCifically, the center sale sourced two purchases of dormitory curtains and
        comforters from the vendor Skyline Mills. Justification for the sole-source
        purchases was documented as the vendor being the onfy company able to match
        the curtains and comforters already in the donnitories and the price was
        reasonable. We found no indication in the center records, such as a price or cost
        analYSis, supporting the price paid was the best value to the government. Adams
        Red Rock's justification for its sole-source purchases was not adequate


                                                L3




                                                     41                   Adams Red Rock Sub-Contracting
                                                                             Report No. 26-11-002-03-370
                                                  U.S. Department of Labor – Office of Inspector General




       justmcation for 8 sole-source purchase. As such, we questioned the $20,697 paid
       for the comforters.

We questioned the $117,895 in total costs for the 13 expenditures ($97, 198 + $20,697).
The $117,895 represented 26.3 percent of the $448,550 in expenditures tested. Based
on our statistical sample, we projected that there were 22 expenditures where vendor
selection did not comply with the FAR, resulting in $196,606 in potential questioned
costs.

Red Rock JCC Response: Expenditures above $3,000 That Resulted In
Questioned Costs - Improper Awarding of BPAs


As set forth in detail in the accompanying cover letter, FAR 44.202-2 governs items which a
government cOn/racting officer must consider in determining whether to give consent to
subcontracts. These FAR provisions do not impose any requirements upon Adams as a prime
contractor. Furthermore, as set forth above, the consent to subcontracts requirements do not
apply to BPAs because BPAs are not contracts themselves: they are just agreements that govern
the terms of future potential contracts (e.g., task orders or purchase orders that may be issued in
accordance with the BPA) (Sec citations in accom panying cover letter.) Accordingly, FAR
44.202 imposes no requirements on Adams to support the use of evaluation factors for awarding
the BPAs or the use of price quotes in vendor selection.

The DIG asserts: "For II expenditures in our sample, the center did not evaluate the sub­
contractors' ability to perform the contracts by developing and employing evaluation factors to
assess bids and award the BPA. "(See Draft Audit Report pg. 8) Notwithstanding the
inapplicability of the authority cited by the DIG. below we repeat from our Response to tbe SOF
some of the activities that we undcrtook to ensure that our process is reasonable and offers best
value to the government:

US Foods (II transactions/checks totaling $97.198).

   •   Check    # 1164-$5.942
   •   Check    #1208-$8,429
   •   Check    #1229-$11 , 166
   •   Check    #1279-$ 16.655
   •   Che<:k   #1399-$11,488

The purchase of food items for the cafeteria was part of the initial food orders within tbe first 60
days of the inception of the contract at the Red Rock Job Corps Center. This was an extenuating
cireumstance in which the company could not initially bid out the food orders and as a result.,
continued to use the services of the food provider that was being used by the previous contractor
until a successful competition process could be put in place. We single sourced the purchase and
prepared a justification which was attached to the purchase order packages during the 60 day
window for all of the food purchases during that period. The food vendor was competitively



                                                14




                                                     42                    Adams Red Rock Sub-Contracting
                                                                              Report No. 26-11-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General




procured by prior center operator. Our process for ordering food was reasonable and offered best
value to the government.

    •   Check #1737-$7,685
    •   Check # 1879-$7,571
    •   Check #1994-$7,228
    •   Check #20]6-$6,809
    •   Check #2066-$5,77]
    •   Check #2236-$8,448

'Ibe audit concern that the center did not obtain three bids for food order greater than $3,000 is
inaccurate. On June 4, 2010, a solicitation for a Food Supplier to the center was posted on
Fedbizops. The solicitation listed the services requested to include but not limited to the supply
of dry goods, frozen food, meat and seafood to the Red Rock Job Corps Center, In response to
the solicitation, the center received bids from US Food Service, Sysco Food Service as well as
Keyeo Distributors which had been used as the basis of placing orders with US Foods, the lowest
overall bidder. As part of the procurement process, the center strongly advocates that the
purehase of food supplies is predicated upon quality, service and price espe<:iaJly for perishable
food items. Furthermore, the center periodically obtains pricing information from vendors and
updates the prieing sheet to allow for the procurement based on lowest pricing.

Red Rock JCC Response: Expenditures above $3,000 That Resulted In
Questioned Costs - Inadequate Sole-Source Justifi cation

Skyline Mills (2 transactions/checks totaling $20,697)
   • Check #3212-$10, 175 and Check #2806-$\0,522

The DIG asserts: "For two olher expenditures, the center did not properly justify sole source. "
(See Draft Audit Report pg. 8.) The DIG states that Red Rock JCC sole·sourced two purchases
of dormitory comforters from the vendor Skyline Mills, and that in each instance, the JCC was
not in compliance with the FAR requirement listed at subpart 6.303·2 (See Draft Audit Report,
pg. 3), or FAR 44.202(a)(7) and (aXi l) (See Draft Audit Report, pg. 7, table).

First, as previously explained in our response to the Discussion Draft Report, the DIG's citation
to 6.303·2 is improper and inapplicable. FAR 6.30]·1 specifies when the justification
requirements in 6.]0]-2 apply. FAR 6.303·1 states as fo!1ows : "A contracting officer shall not
commence negotiations for a sole source contract, commence negotiations for a contract
resulting from an unsolicited proposal, or award any other contract without providing for full and
open competition unless the contracting officer- (I) Justifies, if required in 6,302, the use of
such actions in writing ... " (Emphasis added.) Hcre again, this FAR provision prescribes
requirements for contracting officers, not procurements by prime contractors. Nor is this
provision flowed down to Adams through its contract with DOL. Hcnce, on its face, this FAR
provision is inapplicable.

Second, As sct forth in detail in the accompanying cover letter, FAR 44.202·2 governs items
which a government conlracling officer must consider in detennining whether to give consent to



                                                "



                                                    43                    Adams Red Rock Sub-Contracting
                                                                             Report No. 26-11-002-03-370
                                                U.S. Department of Labor – Office of Inspector General




subcontracts. Thcse FAR provisions do not impose any requirements upon Adams as a prime
contractor. Accordingly, FAR 44.202 imposes no requiremcnts on Adams to conduct price or
costs analysis or to provide justification for its sole-source purchases.

Third, notwithstanding the inapplicability of all the FAR provisions cited by OIG, and as we
previously mentioned in our Response to the SOF, we disagree that the procurement for curtains
and comforters for the donns were not justified. The sole source procurement was justified as
indicated on the Sole Source justi ficat ion fonn, which indicated that the curtains will be
purchased from the contractor that initially decorated the dormitory so that the materials match
the existing decor and exactly as the previous curtains. We could not procure the existing
materials from other sources because the d«!cors could not be replicated by another vendor. As
these donnitories are newly constructed, we intended to continue to kecp the initial decoration
pattern that came with the donn construction.

Finally, despite our efTorts to bring this issue to the OIG's attention via our Response to the
Discussion Draft, the OIG continues to ignore that Red Rock Jee obtained advance Govenunent
approval for this purchase. Specifically, the vendor was approved as part of the National Office
Project for Donn Construction. The interior designs were a part of the construction, and the
furnishings wcre specifically approved by the National Office. It is illogical for the OIG to
request Adams to repay the Government for costs that thc appropriate Government official pre­
approved.

OIG Draft Finding
fOra" Audit Report pg.    9J

Adams Red Rock Obtained Adequate Support Prfor To Payments for Purchase Orders
between $3,000 and $25,000

We examined a statistical sample of 54 purchase orders between $3,000 and $25,000.
For a/l 54 purchase orders examined, Adams Red Rock obtained the required
supporling documents prior to payment.


Red Rock JCC Response: N/A

OIG Draft Concem: FAR Non-Compliance Caused Bv Weak Control Environment
{Drafl Audit Repoft pg.   9J

These conditions occurred because Adams Red Rock did not establish a control
environment, including procedures and oversight, to ensure compliance with the FAR.
Adams did conduct a Corporate Program Assessment at Adams Red Rock from
February 28 - March 4, 201 1. As parl of the assessment, sub-contracts and blanket
purchase agreements were reviewed to detennine if the sub-contracts were prepared
and executed in accordance with company and DOL policy; signed by authorized
parties prior to performance of services; goods and services were received as stipulated
in scope of work; and center goals were met as specified in its center contract.



                                              16




                                                   44                   Adams Red Rock Sub-Contracting
                                                                           Report No. 26-11-002-03-370
                                                 U.S. Department of Labor – Office of Inspector General




However, the assessment team did not review the sub-contract files to determine if they
wefB awarded in compliance with the FAR.

In addition, neither E TA contracting personnel nor Job Corps regional staff monitored
Adams Red Rock's procurement activities. The Job Corps regional office did not review
the procufBment process at Adams Red Rock since Adams was awarded the center
operator contract May 1, 2010. Adams Red Rock did submit its two sub-contracts to the
ETA contracting officer for approval prior to the center awarding the sutrcontracts.
However, the contracting officer did not review the sub-contracts to enSUfB that they
were awarded in compliance with all FAR requirements or best value was obtained.
Prior to approval of a center-awarded sub-contract, the contracting officer reviews the
documents provided and signs off on a sub-contractor fBview checklist. Per FAR 44.2,
under the terms of cost fBimbursable sub-contracts, the contractor must request the
Contracting Officer's consent prior to entering into specified sutrcontracts. Prior to
approving center sub-contracts the Contracting Officer is responsible for reviewing the
request and supporting data.

Red Rock JCC Response: FAR Non-Compliance Caused By Weak Control
Environment

The Red Rock Job Corps Center was scheduled and had its first DOL assessment under the
management of Adams and Associates, Inc. the week of June 6, 2011. Procurement was
reviewed. The Center has not received a formal copy of the assessment to date.

Adams takcs issue with the DIG' s assertion that "the assessment team did not review the sub­
contract tiles to determine if they were awarded in compliance with the FAR." Adams. to date,
despite its many communications with the OIG, has not been apprised of any applicable FAR
requirements with which it has failed to comply. In its Statement of Facts. the DIG did not
provide any specific FAR citations. Hence, in its Response to the SOF, Adams requcsted the
specific FAR cites that thc DIG sought to apply. In response, the DIG's Discussion Draft
contained a number of FAR provisions. However, as explained in our Response to the
Discussion Draft, none of the those provisions applied to Adams as a prime contractor operating
a Job Corps Center for the Department of Labor. Accordingly, in this latest Draft Audit Report,
the OIG (without acknowledgement of its previous misappl.ication of FAR provisions) has
largely discarded those FAR provisions it cited in the SOF. Instead, the DIG has come up with a
new set of supposedly applicable FAR provisions under FAR 44.202-2. As explained herein.
these provisions, which the OIG tries to impose as requirements upon Adams at this eleventh
hour. are also inapplicable. Even if part 44.202-2 did impose these requirements upon Adams,
which it does not. it is incongruous and inappropriate for the OlG to suggest that non-compiiance
with such supposed requirements is a result of a weak control environment by Adams, especially
given that the OlG itself only came up with these alleged requirements in this near-final stage of
the Audit process.

The remai nder of this concern by DIG critiques that actions of ETA contracting personnel and
Job Corps regional stafTwho monitored Adams Red Rock's procurement activities, as well as the
activities of the Contracting Officer. Regarding the OIG's contention that the contractor must



                                               17




                                                    45                    Adams Red Rock Sub-Contracting
                                                                             Report No. 26-11-002-03-370
                                                U.S. Department of Labor – Office of Inspector General




request the Contracting Officer's consent prior to entering into specified sub-contracts, please
see OUI response above to the individual findings regarding PCOM and BHS.




                                              18




                                                   46                   Adams Red Rock Sub-Contracting
                                                                           Report No. 26-11-002-03-370
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix F
Acknowledgments

Key contributors to this report were Ray Armada (Audit Director), Michael Elliott (Audit
Manager), Pat Trager (Lead Auditor), Miguel Hughes, Travis Williams, and Lorenzo
Thornton (Auditors), and Steven Witherspoon (Reviewer).




                                           47                  Adams Red Rock Sub-Contracting
                                                                  Report No. 26-11-002-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

       Online:   http://www.oig.dol.gov/hotlineform.htm
       Email:    hotline@oig.dol.gov

       Telephone:      1-800-347-3756
                       202-693-6999

       Fax:            202-693-7020

       Address: Office of Inspector General
                U.S. Department of Labor
                200 Constitution Avenue, N.W.
                Room S-5506
                Washington, D.C. 20210
